HHS/OIG-Audit--"Review of Alleged Conflict-of-Interest In Institute of Medicine Study of the Adverse Consequences of Pertussis and Rubella Vaccines, (A-15-90-00054)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Alleged Conflict-of-Interest In Institute of Medicine Study
of the Adverse Consequences of Pertussis and Rubella Vaccines," (A-15-90-00054)
January 3, 1992
Complete Text of Report is available in PDF format
(272 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report responds to congressional concerns about allegations regarding
conflicts-of-interest that could affect the credibility of a study of adverse
consequences of pertussis and rubella vaccines. Our review identified conflicts-of-interest
for two committee members. One individual was employed by a gateway.html fund
that was fully supported by a DPT manufacturer. Another resigned after the Institute
of Medicine Study learned that the person had made public statements in a legal
deposition on the effects of DPT vaccines. We also found that NIH failed to
assure the impartiality and objectivity of work performed under this advisory
and assistance contract.